The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
                                        F. Scott Kieff
OFFICE OF INSPECTOR GENERAL




          UNITED STATES INTERNATIONAL TRADE COMMISSION

                                      WASHINGTON, DC 20436

November 7, 2013                                                              IG-LL-017
                                                                              OIG-ML-14-01


Chairman Williamson:

The purpose of this Management Letter is to inform you of an internal control weakness that we
identified during work unrelated to a specific review.

The Ethics in Government Act of 1978, as amended, requires individuals in the Senior Executive
Service (SES) to file a public disclosure report of their finances as well as other interests outside
the Government. The primary purpose of the disclosure report is to assist agencies in identifying
potential conflicts of interest between a filer's official duties and the filer's private financial
interests and affiliations. The Office of Government Ethics regulations require SES members to
file within 30 days of assuming the position, and annually thereafter.

Currently, when a new SES entrant arrives at the Commission, the Office of Human Resources
informs the Ethics Office. The Ethics Office then requests the SES member to complete the
public disclosure report, Form OGE-278. After the SES member submits the completed OGE-
278 to the Ethics Office, the Ethics Office updates the employee listing of individuals required to
submit the annual public disclosure report.

Recently, the Office of Inspector General requested the Commission’s Ethics Office to provide
copies of the OGE-278 reports that should have been filed by a current SES employee. The
Ethics Office did not have the reports. After further investigation by the Ethics Office, it was
determined that the SES member did not respond to their initial request to submit the disclosure
report, and as a result, the individual was not added to distribution list of annual filers.

Based on this instance, we have identified the following two problems:

       1) The process for new entrants, designated as filers, does not have controls to ensure
          financial disclosure reports are filed within the 30 days statutory timeframe.
       2) The annual financial disclosure reports process does not have controls to ensure that
          all employees, who have been designated as filers, submit the report as required.
We discussed the content of this Management Letter with the Commission’s Designated Ethics
Officer and received verbal feedback. We are making three recommendations for corrective
action.

Recommendation 1: The Commission validate that all required filers have submitted reports.

Recommendation 2: The Commission update procedures to include controls to ensure that new
entrants, designated to file a disclosure report, submit the reports.

Recommendation 3: The Commission update annual filing procedures to include controls to
ensure all employees who have been designated filers submit the financial disclosure reports.

In the next 30 days, please provide me with your management decisions describing the actions
you will take to implement each recommendation.

Sincerely,




Philip M. Heneghan
Inspector General




                                             Page 2
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
